              UNITED STATES DEPARTMENT OF THE INTERIOR
                                 Office of Inspector General
                                          1849 C Street NW
                                               MS 5341
                                         Washington, DC 20240

                                                                                  May 16, 2006
Memorandum

To:            Brian Waidmann
               Chief of Staff

From:          Earl E. Devaney
               Inspector General

Subject:       Transmittal of Report of Investigation – Allegations Concerning Senior Officials
               of the Office of Special Trustee for American Indians

        This memorandum transmits the results of the Office of Inspector General (OIG)
investigation into allegations that senior officials in the Office of Special Trustee (OST) created
an appearance of preferential treatment in regard to a contract with Chavarria, Dunne & Lamey
(CD&L) LLC by socializing, exchanging gifts, and exerting pressure on OST contract staff to
award a sole-source contract and then continue to award contract work to CD&L without
competition. The OIG also investigated allegations that the Office of Trust Resources
Management (OTRM) entered into a contract with a consultant without any business necessity
and that OST entered into an interagency agreement to help old friends and colleagues of an OST
official.

        In summary, the report presents information that establishes that the conduct of four OST
officials – Donna Erwin, Doug Lords, Jeff Lords, and an OST management analyst – created an
appearance of preferential treatment of CD&L and another OST contractor, in violation of the
Standards of Ethical Conduct for Employees of the Executive Branch, and in violation of an
internal OST memorandum directing “Arms Length Dealings with Contractors.”

        More specifically, the report shows that over a period of years, OST awarded and
continued to extend and expand, without competition, a contract with CD&L for trust fund
accounting and risk management services. At the same time as this contract grew and expanded,
the most senior ranking officials in OST – Donna Irwin, Principal Deputy Special Trustee; Doug
Lords, Deputy Special Trustee for Field Operations; and Jeff Lords, Deputy Special Trustee for
Trust Accountability – engaged in extensive outside social activity with executives of CD&L.
This social activity included exchanging gifts of meals and drinks with CD&L executives, taking
out-of-town trips to a major golf event, playing golf together on almost a weekly basis, and
exchanging hospitality at personal residences. The report also shows that OST contract
personnel felt pressured by these senior OST officials to continue to award work to CD&L.




                 This memorandum contained information that has been redacted pursuant to
                         5 U.S.C. § 552(b)(5) of the Freedom of Information Act.
        The seriousness of this conduct on the part of the OST senior management is exacerbated
by the nature of the contract, the sensitivity of the work involved, the level of the OST officials’
positions, and the mission of OST – each of which lies close to the heart of the protracted and
contentious Cobell litigation.

        While the report also contains information relative to five other OST employees who
socialized with OST contractors in violation of OST internal “Arms Length” guidance, only the
conduct of the OST management analyst, by virtue of his official responsibilities as a contracting
officer’s technical representative and member of the contractor selection committee, rises to the
level of a violation of the Standards of Conduct.

      The Report of Investigation was presented to the U.S. Attorney’s Office for the District
of New Mexico, which declined prosecution.

      Therefore, I am transmitting this report to you for whatever administrative action you
deem appropriate. [Ex. 5]

        Notably, the report discloses that numerous OST personnel are concerned that they may
be retaliated against by the senior OST management for cooperating and providing information
to the OIG. As you know, §7 (c) of the Inspector General Act of 1978, as amended (5 USC
Appx.), prohibits any reprisal against an employee for making a complaint or disclosing
information to the OIG. As such, I am requesting that you personally ensure that no such action
is taken against any of the OST personnel who cooperated and provided information to the OIG.

       In addition to taking appropriate action against the subjects of this investigative report, I
urge you to thoroughly review both the performance of the CD&L contract as well as any
pending or future awards to the CD&L contract, particularly if they are being awarded without
competition.

       [Ex. 5]

       If you have any questions about this report, [Ex. 5], or the accountability form, please do
not hesitate to contact me at (202) 208-5745.

Attachments




                 This memorandum contained information that has been redacted pursuant to
                         5 U.S.C. § 552(b)(5) of the Freedom of Information Act.
         Investigative Report
                       On Allegations Concerning Senior Officials
                of the Office of the Special Trustee for American Indians




This report contained information that has been redacted pursuant to 5 U.S.C. §§ 552(b)(6) and (b)(7)(C) of the Freedom of
 Information Act and the Privacy Act, 5 U.S.C. § 552a. References indicating gender are written in the masculine form to
                        protect the identities of individuals and to facilitate the reading of the report.
                                       Results in Brief
        In July 2003, the Office of Inspector General (OIG) received allegations concerning senior
officials of the Office of the Special Trustee for American Indians (OST) that:

   1) Chavarria, Dunne & Lamey LLC (CD&L), a contractor for OST, received favorable treatment
      in the award of OST contract work from OST senior officials.

   2) The Office of Trust Risk Management (OTRM) of OST entered into a consulting contract with
      a consultant to spend end-of-fiscal-year funds without business necessity.

   3) The former program analysis officer for Office of Trust Review and Audit (OTRA), OST,
      entered into an interagency agreement with the Indian Business Operations (IBO) to help
      friends and colleagues, and not out of any business necessity.

        The OIG initiated an investigation, reviewing thousands of documents related to seven
contracts and one interagency agreement with a total value of approximately $77 million. We
subpoenaed and reviewed CD&L corporate expense reports; examined thousands of e-mails contained
in four senior OST officials’ archives; and interviewed over 50 individuals, including CD&L
executives and employees, former and current OST employees, other former and current DOI
employees, and government contractors. Some of these individuals required multiple interviews to
follow up on information developed during the investigation.

        Our investigation found that several senior OST officials and the executives of CD&L
frequently golfed or socialized together over a period of 8 years. This conduct on the part of OST
officials appears to violate departmental ethics rules, the Federal Acquisition Regulation (FAR), Title 5
of the Code of Federal Regulations (CFR), and Executive Order (EO) 12731, governing employee
conduct. Our investigation did not, however, identify any instances where contracts were authorized
without any business necessity. We did, however, identify questioned costs and contract irregularities.

       Prosecution was declined by the United States Attorney’s office in Albuquerque, NM.

                                          Background
        OST was created within the U.S. Department of the Interior (DOI) by the American Indian
Trust Fund Management Reform Act of 1994 (Public Law 103-412) to improve the accountability and
management of Indian funds held in trust by the federal government. As trustee, DOI has the primary
fiduciary responsibility to manage tribal trust funds and Individual Indian Monies (IIM) accounts, as
well as the resources that generate the income for those accounts.

       In order to satisfy its fiduciary responsibilities, OST often enters into government contracts
with private companies. These contracts are governed by the provisions of the FAR, which provide,
among other things, a general requirement for full and open competition.

       Additional regulations and guidance apply to government employee conduct as it relates to
dealings with government contractors or prohibited sources. According to the September 2002 DOI
Ethics Guide, a prohibited source includes “any person, company, or organization that has business

                                                   2
with your agency; is seeking to conduct business with your agency; conducts operations regulated by
your agency; or has any interests that may be affected by your official duties.”

         During our investigation, we also found a September 17, 2002 memorandum entitled “Arms
Length Dealings,” issued by OST’s procurement chief, which gave further direction to all OST
personnel concerning appropriate conduct relative to contractors or prohibited sources. We learned
during our interviews that this memorandum had been issued because several OST employees
expressed concerns about government contractors and OST officials engaging in social activities
outside of work, such as golfing at country clubs. The procurement chief’s memorandum addressed
the critical need for employees to maintain arms length dealings with government contractors in order
to avoid the appearance of impropriety. Below are excerpts taken from the memorandum:

              Arms Length Dealings is an important concept in contracting which means
              that all contacts with vendors/contractors must be conducted with reserve
              and distance …

              Close conduct with vendors/contractors must also be avoided so as not to
              give the appearance of impropriety, preferential treatment or unfair
              advantage. An OST procurement can become tainted and even stopped
              due to any OST employee’s inappropriate communications, conduct or
              close contacts with vendors/contractors. Even an appearance of
              impropriety can lead to consequences …

              … employees must at all times take into consideration how the outside
              world would view the contact. If the conduct or communications would
              look questionable to someone on the outside, in particular a competing
              vendor, it must be considered questionable. Conversations and contacts
              that in other situations would be innocent can be construed in the federal
              procurement arena as questionable leading to civil and criminal penalties
              and consequences.

       The language in the memorandum is very similar to the language in rules governing employee
conduct including Title 5 CFR Part 2635, titled, “Standards of Ethical Conduct For Employees of the
Executive Branch,” EO 12731, and the FAR. In part, these regulations state:

              Employees shall endeavor to avoid any actions creating the appearance
              that they are violating the law or the ethical standards set forth in this part.
              Whether particular circumstances create an appearance that the law or
              these standards have been violated shall be determined from the
              perspective of a reasonable person with knowledge of the relevant facts.
              (5 CFR Part 2635)

              Employees shall not use public office for private gain, and employees
              shall act impartially and not give preferential treatment to any private
              organization or individual. (EO 12731)

               Government business shall be conducted in a manner above reproach and,
              except as authorized by statute or regulation, with complete impartiality

                                                    3
               and with preferential treatment for none. Transactions relating to the
               expenditure of public funds require the highest degree of public trust and
               an impeccable standard of conduct. The general rule is to avoid strictly
               any conflict of interest or even the appearance of a conflict of interest in
               Government-contractor relationships. (FAR Part 3, Subpart 3.101)

                                  Details of Investigation
Allegation of Favorable Treatment for CD&L

        Between approximately October 1998 and February 2005, Donna Erwin, Principal Deputy
Special Trustee, OST; Douglas A. Lords, Deputy Special Trustee, Field Operations, OST; and Delano
“Jeff” Lords, Deputy Special Trustee, Trust Accountability, OST, socialized on numerous occasions
with the executives of CD&L, as well as other OST contractors and former Office of Trust Funds
Management (OTFM) contractors. This included golfing at exclusive resorts together, traveling in a
recreational vehicle (RV) together, dining at upscale restaurants together, entertaining one another at
their personal residences, and attending happy hours together on a regular basis.

        While there was considerable socializing between OST officials and OST contractors prior to
the issuance of the “Arms Length Dealing” memorandum in September 2002, the socializing did not
cease after the guidance was in place. For example, in November 2002, CD&L executives, other
contract employees, and OST officials participated in an OST golf scramble; in December 2002, Erwin
and her Chief of Staff attended a happy hour with a CD&L executive and his employees at the Seagull
Street restaurant. Jeff and Doug Lords, the former program analysis officer for OTRA, two CD&L
executives, and a former OTFM contractor, along with other individuals, golfed together at various
courses over multiple days prior to the premier Professional Golf Association (PGA) Phoenix Open
tournament. The group traveled together to Phoenix, Arizona, where Jeff and Doug Lords (and
possibly others) attended the PGA Open.

        A review of the CD&L expense reports, obtained though an Inspector General subpoena,
disclosed that OST officials frequently golfed with CD&L executives and/or employees. These golf
outings occurred during both official travel related to contract work and during non-duty hours. The
golfing took place at exclusive resorts, private golf clubs, a local country club, and public golf courses
spanning seven states, including New Mexico, Arizona, Montana, Idaho, Oregon, Nevada, and
Washington (Appendix A). CD&L executives went on annual excursions with Jeff Lords and Doug
Lords, including the Phoenix Open. OST officials maintained that they paid their own expenses
associated with golfing. However, according to Doug Lords, they did share travel expenses, such as
gas, snacks, and beverages. Three OST officials who did not participate in these activities
characterized the relationship between CD&L and the OST officials as a “clique.”

Donna Erwin

        Erwin was the Acting Special Trustee when the Arm’s Length Dealings memorandum was
issued. Erwin told OIG special agents that she felt the memorandum was harsher than she expected it
to be and said that “you cannot do anything at all” with government contractors. Approximately 3
months after the memorandum’s issuance, Erwin, with her chief of staff, went to Seagull Street


                                                    4
Restaurant for a happy hour organized and attended by a CD&L owner and staff. The OST contracting
officer’s technical representative documented Erwin’s presence at the event and his concerns about
appearance issues in the contract file. According to the note, a CD&L employee bragged about having
drinks with the Special Trustee, referring to Erwin. The technical representative stated that he told the
contracting officer about the issue, and later Erwin asked him why he was “bitching” about her having
drinks.

        Erwin also attended other social gatherings in which CD&L employees and other government
contractors were known to have participated, including potlucks, retirement parties, dinners, golfing
events, and tailgate parties. Erwin recalled one instance where a CD&L official purchased a drink for
her, and she reciprocated. Erwin did not recall who the official was. She also did not remember
purchasing meals for CD&L employees or vice versa, and, she said at no time did CD&L pay for her
golf expenses. Erwin stated that during social activities with CD&L, they discussed general business
issues related to current work, but she never discussed anything of a proprietary nature with CD&L.

        Erwin stated that it was possible that she may have received drinks from other contractors,
including Chickasaw Nation Industries, KPMG, and another contractor, but she could not recall any
specific instances. Erwin added that she was certain she never received anything of value from a
contractor performing work for OST in excess of $20 on one occasion or more than $50 in 1 year.

Agent’s Note: During her August 2005 interview, a written statement was prepared for Erwin. Erwin
made handwritten corrections in the margins of the statement, but the statement was not finalized and
Erwin did not sign it. At a later date, after consulting with an attorney, Erwin submitted a signed
written statement to the OIG that she prepared separately from the interview.

       Erwin’s activities with prohibited sources based on her testimony and CD&L expense reports
are summarized as follows:

DOI Employee                      Activities with Prohibited Source & Frequency
                                                       Interviews

Donna Erwin       Golf
                  • Golfed in three or four OST golf scrambles where prohibited sources were
Senior              present (Erwin could not recall dates, but she is listed on the November 2002
Executive           and June 2003 rosters)
Service
                  Drinking/Dining
Principal         • Attended Happy Hour at Seagull Street Restaurant on December 31, 2002,
Deputy Special      with prohibited sources
Trustee
                  Socializing
                  • Attended CD&L’s Open House
                  • Attended three OST Christmas parties in 2000 and 2001 (Erwin could not
                    remember the third date) where prohibited sources were present
                  • Attended retirement parties “too numerous to recall” where prohibited
                    sources were present


                                                   5
                                                CD&L Expense Reports

                  Entries from CD&L expense reports

                  • Dinner on March 18, 2002 – Lords, Donna, [Ex. 6 & 7C], OST Accounting
                    Officer (no receipt)
                  • More than 20 questionable entries relating to OST/OTFM staff between 1999
                    and 2003



Doug Lords

        Doug Lords said that while he was the OTFM deputy director, he wrote a sole-source
justification for one contract with CD&L using the firm’s expertise as the justification. Doug Lords
stated that although he recommended exercising option years on CD&L’s contract, the contracting
office had the final authority to exercise that recommendation.

        Doug Lords told OIG special agents that he began socializing with two CD&L executives in
1996. Both Doug Lords and his brother, Jeff Lords, frequently golfed with the CD&L executives.
Doug Lords also traveled to the Phoenix Open for the last 6 to 8 years, most recently in 2005, with a
relative, the two CD&L executives, a friend of one of the CD&L executives, the friend’s brother, the
former program analysis officer for OTRA, and a former OTFM contractor. Doug Lords and one
CD&L executive traveled together in Doug Lords’ van or a relative’s RV on the first four trips,
beginning in 1998 or 1999. Doug Lords stated that he attended other social gatherings with the two
CD&L executives, such as dinners, happy hours, potlucks, and retirement parties. Doug Lords and the
CD&L executive also entertained one another at their personal residences.

        Doug Lords told OIG special agents that between 1997 and 2004, there were approximately 5
to 10 occasions that he bought meals for a CD&L executive, and this individual bought meals for him
on approximately 5 to 10 occasions. Additionally, he purchased drinks for the CD&L executive
approximately 20 times, and this individual purchased drinks for him approximately 20 times. Doug
Lords said he purchased drinks for another CD&L executive less than five times, and this individual
purchased drinks for him less than five times. Lords said he did not purchase meals for this CD&L
executive. In 1997, he also purchased drinks for the former OTFM contractor less than five times, and
this individual purchased his drinks less than five times.

        Doug Lords admitted that he exceeded the ethics gift threshold of $20 per occurrence and $50
per year, while reciprocating the purchasing of meals and drinks with a CD&L executive, but he
excused himself by saying that the violations occurred in social settings, as opposed to during official
business. Doug Lords referred to one occasion in about 1998 or 1999 when he, a CD&L executive,
and two relatives went to an Albuquerque restaurant to celebrate a birthday. The CD&L executive
paid the entire bill that was about $100. On another occasion in about 2004, Doug Lords and a relative
had drinks, appetizers, and dinner with the CD&L executive at an Albuquerque restaurant, and Doug
Lords paid the entire bill of about $90.




                                                   6
        The ethics rules that prohibit government employees from receiving gifts from a prohibited
source in excess of $20 per occurrence and $50 per year do not distinguish between on-duty and off-
duty hours. Furthermore, despite Doug Lords’ statement that his socializing with CD&L occurred
because of their personal friendships, we found that CD&L claimed many of their costs associated with
these social interactions as business expenses. Doug Lords advised that in the past few years, CD&L
has not performed any contract work under his areas of responsibility. However, prior to that, Doug
Lords never recused himself from any OST contracts awarded to CD&L.

Agent’s Note: During his August 2005 interview, a written statement was prepared for Doug Lords.
The statement was not finalized, and Doug Lords did not sign it. At a later date, Doug Lords submitted
a signed written statement to the OIG that he prepared separately from the interview.

        Doug Lords’ activities with prohibited sources based on his testimony and CD&L expense
reports are summarized as follows:




                                                  7
DOI Employee                      Activities with Prohibited Source & Frequency
                                                      Interviews

Doug Lords        Golf
                  • Golfed in four or five OST golf scrambles where prohibited sources were
Senior              present (on roster for November 2002 and June 2003 scrambles)
Executive         • Golfed with CD&L executive between 1997 and 2005
Service           • From 1998-2005 (with the exception of 2003) attended the annual “Guy’s Deal”
                    trip to the Phoenix Open Golf Tournament Event, with golfing en route to event,
Deputy Special      which also included CD&L executives
Trustee           • Reported golfing at Tanoan Country Club about 2 or 3 times a month in 2004,
                    with two CD&L executives
Field             • Golfed with CD&L executives at various New Mexico courses
Operations        • Golfed with CD&L executives at various out-of-state courses

                  Drinking/Dining
                  • Attended happy hours 2 to 3 times with prohibited sources in approximately
                     1999 and 2003
                  • Reciprocation of dinners with CD&L executive 10 to 20 times between 1997 and
                     2004
                  • Reciprocation of drinks approximately 60 times with 4 prohibited sources

                  Socializing
                  • Attended OST Christmas parties, OST potlucks, OTFM birthday party,
                    retirement parties, and tailgate parties where prohibited sources were present
                  • Considers two CD&L executives “friends”

                                              CD&L Expense Reports

                  Entries from CD&L expense reports

                  • Approximately 65 golf expenses relating to golf events with Douglas Lords
                    from October 1998 to October 2003
                  • Approximately 10 other questionable entries relating to Douglas Lords were
                    also found


Jeff Lords

        Jeff Lords told OIG special agents that during 2003, he became directly involved with
contracting when he received the Risk Management and Special Project Program. CD&L performed
work on both. Jeff Lords told OIG agents that he recused himself from the risk management work
when it went out for competitive bid. However, prior to that, Jeff Lords had requested that the DOI
National Business Center (NBC) award a sole source contract to CD&L for the Risk Management roll-
out project.

                                                  8
        A certified public accountant (CPA) for Neff & Ricci LLP (N&R), Consultants & Certified
Public Accountants, Albuquerque, NM, told OIG special agents that because so much OST work was
going to CD&L, he tried to team with CD&L on the Special Deposit Account (SDA) project that was
going to be competed using Financial and Business Solutions (FABS). CD&L was not on FABS at the
time; therefore, they would not be qualified to compete for the work. When the CPA contacted a
CD&L executive about teaming on the project and allowing CD&L to perform the site work, the
executive told him that CD&L was already working with Jeff Lords on site work and that Jeff Lords
had promised CD&L the work. The CPA asked the CD&L executive how that could be since CD&L
was not on FABS. The executive told him that CD&L had applied to the General Services
Administration (GSA) for FABS and thought they would be approved before the Request for Quote
(RFQ) deadline of September 28, 2004. The CPA told OIG agents that he “could not believe [the
CD&L executive] said that. I filter my words better than that,” he said.

       Both CD&L executives denied the CPA’s claims that either told him that Jeff Lords already
promised them the work. Both also advised that they did not want to partner with Neff & Ricci
because they felt CD&L was more qualified to perform the SDA work. According to the CD&L
executives, the CPA for Neff & Ricci threatened to protest if the work was awarded to CD&L, and
ultimately Neff & Ricci was awarded the SDA work.

       Jeff Lords told OIG agents that he began attending social gatherings, such as golf outings,
multiple-day trips, dinners, drinks, and one retirement party with the executives of CD&L in 1998.
From approximately 2000 through 2004, Jeff Lords purchased two to three meals for a CD&L
executive, and this individual purchased two to three meals for him. Jeff Lords purchased drinks for
the CD&L executive approximately 10 times, and this individual purchased drinks for Jeff Lords
approximately 10 times during the same period of time. In 2000, Jeff Lords purchased drinks for the
former OTFM contractor once or twice, and this individual purchased drinks for Jeff Lords once or
twice.

        Jeff Lords’ activities with prohibited sources, based on his testimony and CD&L expense
reports, are summarized as follows:

 DOI Employee                      Activities with Prohibited Source & Frequency
                                                      Interviews

 Jeff Lords        Golf
                   • Golfed in four or five (one per year) OST golf scrambles where prohibited
 Senior               sources were present (listed on November 2002 and June 2003 roster)
 Executive         • Golfed with one CD&L executive “about five times” between 2003 and 2004
 Service           • Golfed with CD&L executive “approximately 10 times” between 2002 and
                      2003
 Deputy Special    • Golfed with CD&L executive and the executive’s out-of-town friends in the
 Trustee              summer of 2003
                   • Attended annual trip to the Phoenix Open Golf Tournament, with golfing in
 Trust                route to event, with CD&L executives two times
 Accountability


                                                  9
 DOI Employee                      Activities with Prohibited Source & Frequency
                   Drinking/Dining
                   • Reciprocation of lunches with CD&L executive four to six times between
                      2000 and 2004
                   • Reciprocation of drinks with CD&L executive and the former OTFM
                      contractor 22 to 24 times between 2000 and 2004

                   Socializing
                   • Attended retirement parties where prohibited sources were present

                                               CD&L Expense Reports

                   Entries from CD&L expense reports
                   • Approximately 12 golf expenses relating to golf events with Jeff Lords from
                      approximately January 1999 to April 2002
                   • Approximately 3 restaurant expenses during June 1999
                   • Approximately 7 other questionable entries relating to Jeff Lords were also
                      found

                   Note: After Jeff Lords’ review of expense entries, he stated that “the reports
                   accurately reflected his activities with CD&L and did not surprise him.”


The Former Program Analysis Officer for OTRA

       The former program analysis officer for OTRA was the director of OTRM before becoming the
program analysis officer. As a result of an OST reorganization in 2003, OTRM became OTRA.
CD&L developed a Risk Management Program for OTFM, and the former program analysis officer
believed that the program was a good foundation and could be expanded for OTRM’s use. Therefore,
he made the decision to contract with CD&L for Risk Management services for OTRM.

        The former program analysis officer for OTRA told OIG special agents that he frequently
socialized with OST contractors. He participated in out-of-town trips to Arizona and Nevada with two
CD&L executives in addition to the former OTFM contractor. The trips were in conjunction with the
Phoenix Open PGA tournament. He has also golfed with one of the CD&L executives approximately
eight to nine times a year, and he has golfed with another CD&L executive, as well as the former
OTFM contractor, occasionally.

      The former program analysis officer’s activities with prohibited sources based on his testimony
and CD&L expense reports are summarized as follows:




                                                  10
DOI Employee                      Activities with Prohibited Source & Frequency
                                                      Interviews

Former            Golf
Program           • Golfed in a “couple” of OST golf scrambles with prohibited sources, one in
Analysis             2003
Officer for       • Golfed with CD&L executives in scramble, which also included a relative of
OTRA                 the former program analysis officer, for OTRA in 2003
                  • Golfed with two CD&L executives, which included Doug and Jeff Lords and
Office of Trust      a relative in November 2000
Review and
Audit             Drinking/Dining
                  • Drinks with CD&L executive at Tanoan Country Club after golf or while out-
                     of-town on official travel

                  Socializing
                  • Attended retirement party with prohibited sources

                                             CD&L Expense Reports

                  Entries from CD&L expense reports
                  • Nineteen golf expenses relating to golf events with the former program
                      analysis officer for OTRA from April 2000 to September 2003


Former OST Procurement Chief

        The former OST procurement chief who signed the “Arm’s Length Dealings” memorandum
told OIG agents that he attended OST golf scrambles several times in 2002 and 2003. Personnel from
KPMG, an OST Contractor, and CD&L, as well as the former OTFM contractor, participated in the
events. The former OST procurement chief said that a few years ago, Doug and Jeff Lords invited him
to the PGA Phoenix Open golf tournament. He declined the offer, saying he did not want to be tied to
anything possibly questionable.

      The former OST procurement chief’s activities with prohibited sources, based on his testimony
and CD&L expense reports, are summarized as follows:




                                                 11
DOI Employee                       Activities with Prohibited Source & Frequency
                                                      Interviews

Former OST        Golf
Procurement       • Golfed in four to six OST golf scrambles with prohibited sources in 2002 and
Chief                2003
                  • Golfed with CD&L executive and Doug Lords in 2001

                                               CD&L Expense Reports

                  Entries from CD&L expense reports

                  •   Five entries relating to golf events with the former OST procurement chief
                      from February 1999 to April 2002



OST Information Technology Services Official

       While one information technology services (ITS) official was not directly involved in
contracting, he organized OST golf scrambles in which government contractors were invited. He
estimated the OST golf scrambles began in 1996 or 1997, were oriented to foster teamwork, and
generally occurred about three times per year. The ITS official paid the golf course fee in advance,
and participant money was collected on-site the day of the tournament. He said OST, BIA, and DOI
employees, relatives, friends, and retirees participated, including Doug Lords, Jeff Lords, and Erwin.
He further stated that government contracting personnel from CD&L, KPMG, and DataCom attended.
The ITS official related that no money changed hands illicitly and entrants paid their respective fees.
He said receipts for payment were not issued to OST golf scramble participants.

       CD&L provided the OIG with a check that it wrote to the ITS official for its golf fees.

OST Management Analyst

        An OST management analyst also socialized with government contractors. He estimated that
he participated in two or three OST golf scrambles. He told OIG agents that he had no relationship
with contractors, and his professional judgment was not influenced.

        Documentation examined during the contract file review indicated that the OST management
analyst was the subcontracting officer’s technical representative for Task Order No. 2, No. 4, and No.
6. According to an OIG auditor, the OST management analyst was also on the contractor selection
committee for the OTFM financial statement audit contract. The management analyst was also the
contracting officer’s technical representative on the contract for the audit, which was performed by the
former OTFM contractor. The management analyst estimated playing golf with the former OTFM
contractor about six times and with another employee with the former OTFM contractor, subcontracted
to CD&L, roughly four times.


                                                  12
       As part of the audit contract, OST personnel and government contractors went on site visits.
During the 2000/2001 audit, the OST management analyst; a CD&L executive; an employee of the
former OTFM contractor, subcontracted to CD&L (utilized by CD&L under a work agreement); and
the former OTFM contractor went on a 2-week field trip to the Northwest BIA agencies. On the trip,
over the weekend, they played golf twice at two different courses at Coeur d’Alene, Idaho; one course
cost approximately $150 for a round of golf. They also golfed at a course in Spokane, Washington,
and golfed once or twice while at the Flathead Agency in Polson, Montana.

       The OST management analyst also served on the evaluation team for the new risk management
contract that was awarded in April 2004. The contract was awarded to DataCom, based on their
decision to team with CD&L.

Trust Funds Liaison Officer

        The trust funds liaison officer’s duties included serving as a “go-between” for trust funds
management and the tribes on such issues as requests for withdrawals, the 1994 Indian Trust Reform
Act, contracting/compacting programs, and congressional inquiries. The liaison officer conducted
training on risk management with CD&L. He was also the point of contact for a portion of CD&L’s
contract and assisted an OST management analyst in carrying out the contract objectives. CD&L
performed annual evaluations on three tribally compacted programs involving the Cherokee,
Wyandotte, and Flathead tribes, and the liaison officer was involved on a task order under this
contract.

        The liaison officer participated in the November 2002 OST golf scramble. Personnel from
DataCom, KPMG, and CD&L joined in the event as well. The liaison officer has golfed with one
CD&L executive four or five times over the last 2 years. He asserted that he always paid his own way.
He primarily played golf with Doug Lords, and if CD&L executives were there, then they all golfed
together. He also played golf at Isleta in 2003 with the former OTFM contractor and one of the CD&L
executives. The CD&L executive introduced the former OTFM contractor to the liaison officer as a
friend who was going to join them in playing golf that day.

OIG Interviews of CD&L Executives

        During the investigation, CD&L officials advised OIG special agents about the extent of their
golf activities with OST officials, which was the same frequency reported by OST. One CD&L
executive told us that he golfed in two OST golf scrambles and that he attended the Phoenix Open trip
once. He stated that he:

   •   Golfed with Doug Lords 10 to 15 times during 2003 and 2004
   •   Golfed with Jeff Lords four to five times during 2003 and 2004
   •   Golfed with the trust funds liaison officer four to five times during 2002, 2003, and 2004
   •   Golfed with the former program analysis officer for OTRA eight to nine times during 2003 and
       2004




                                                 13
       Another CD&L executive stated that he attended the Phoenix Open trip twice, where he golfed
with the Lords in Laughlin, Nevada, and in Phoenix, Arizona, prior to the Phoenix PGA Open
tournament. The CD&L executive stated that he:

   •   Golfs with Doug Lords 15 to 20 times per year (time frame not specified)
   •   Golfed with the former program analysis officer for OTRA, Jeff Lords, the former OST
       procurement chief, an OST management analyst, and an OST trust reform specialist two times
       (time frame not specified)
   •   Golfed with the former OTFM contractor; an employee of the former OTFM contractor,
       subcontracted to CD&L; and an OST management analyst during a trip to field offices at two
       different courses in Coeur d’ Alene, Idaho, at a course in Spokane, Washington, and once or
       twice while at the BIA Flathead Agency in Polson, Montana, during 2001 and 2002
   •   Golfed with an OIG auditor three to five times at public golf courses (time frame not specified)

       One CD&L executive stated that he golfed in three OST golf scrambles and he may have
golfed one or two other times with OST employees but cannot recall who was present. The CD&L
executive stated that he never paid government employees’ expenses, golf or otherwise, and that he
never gave any government employees gifts or anything of value.

Review of CD&L Expense Report Issues

        CD&L executives and OST officials insisted that their relationships were merely social and in
no way affected government contract decisions. However, CD&L expense reports for the period
October 1998 through December 2003 disclosed hundreds of instances where CD&L executives
reported and claimed their social activities with OST officials as business expenses, sometimes
recorded as practice development. Erwin, Doug Lords, and Jeff Lords were even listed on the CD&L
corporate expense reports under the column titled, “Business Reason,” for their attendance at activities
with CD&L executives, including dining, golfing, and office parties, although the investigation did not
identify any instances where the expenses listed on CD&L reports were the expenses of a government
employee.

        Additionally, our investigation revealed specific patterns and trends relative to OST’s
socializing with contractors and CD&L contract actions, giving the appearance that CD&L received
favorable treatment from OST officials. Below is an example of one of the hundreds of CD&L
expense reports we reviewed, which shows that merely 4 days before the CD&L contract in question
was awarded, Doug Lords’ name appeared on CD&L’s expense report for one CD&L executive in
relation to golf and a business meeting:




                                                   14
         We noted several examples similar to the one shown above. For instance, less than a month
before the contract was definitized for $150,000, Doug Lords’ name is listed on a CD&L expense
report for a golf outing with a CD&L executive. Two weeks before modification two to the contract
was made, which added over $78,000 to the contract, Doug Lords’ name is shown again on a CD&L
expense report for a golf outing with a CD&L executive. These types of instances occurred throughout
the life cycle of the CD&L contract, creating the appearance of improprieties (Appendix B).

Erwin’s Request for Ethics Opinion on Socializing

        During a June 2004 OIG interview, Erwin stated that she planned to consult DOI’s Office of
Ethics (OE) about the CD&L office building open-house that she attended with her chief of staff, golf
scrambles, golf, retirement parties, Christmas parties, and tribal feast days.

        During a subsequent interview, Erwin provided OIG special agents with a copy of a response
memorandum, dated July 16, 2004, from the Director, OE, signed by the former Deputy Director, OE,
addressed to the Principal Deputy Special Trustee. Erwin stated that she read the memorandum and it
contained no surprises. She stated that the OE conveyed that a working relationship was acceptable as
long as each party paid their own way and was mindful of appearance issues.

        A review of Erwin’s request revealed that it did not contain all of the facts necessary for OE to
provide an informed response. Specifically, Erwin did not address any of the socializing aside from
the golf scrambles, and she did not report the frequency of the socializing. Erwin also did not address
the socializing that occurred between a few select individuals, as opposed to events in which the entire
staff participated.

        When OIG agents later asked Erwin if her June 2004 request for an ethics opinion represented
all matters discussed with the OIG, including golfing, purchasing meals and drinks, and various
socializing activities with government contractors, Erwin admitted that her request did not accurately
represent the social activities discussed with the OIG. Erwin stated that her chief of staff put the
request together and Erwin just signed it. Erwin stated, “I don’t think we intentionally did it.”




                                                   15
Pressure by OST Management on Employees to Award
$6.6 Million Contract Work to CD&L Without Competition

         Our investigation found that OST issued a 1-year, noncompetitive contract to CD&L during
October 1998 to perform expert accounting and consulting services concerning OST’s current
litigation efforts. This 1-year contract, which totaled only $150,000, did not allow for option years.
However, OST modified the contract over 50 times and issued 11 Task Orders (TO) under the contract,
increasing the value of the award to over $6.6 million, all without competition. Our investigation
revealed that while Erwin, Doug Lords, and Jeff Lords did not directly award contracts, TOs, and
modifications, and are not contracting officers, they were involved in the procurement process. In
addition, interviews with the officials who were responsible for awarding the contracts revealed that
they felt pressured by Erwin, Doug Lords, and Jeff Lords to award work to CD&L.

       These interviews disclosed a pattern in which the staff said they felt pressured by OST
management. The former OST procurement chief told us that many of the OST officials who were
involved with the CD&L contract are now in management positions and OST staff fear reprisal from
OST senior management if they provide information to the OIG.

       Several people we interviewed expressed a sense of pressure and influence from OST
management to award OST work to CD&L without competition. Several also expressed concerns
about appearances.

       An NBC contracting officer told OIG agents that he was uncomfortable with the appearance of
so much work going to CD&L. He was so uncomfortable with the relationship between OST and
CD&L that he said he was looking for something to say that CD&L is not eligible to bid on the new
contract. He stated that he did not understand “why the folks at OST are hell bent on protecting
[CD&L].”

        The contracting officer stated that he felt OST was “in bed with CD&L.” He said the direction
to sole-source a risk management contract for follow-up work to CD&L stemmed from Jeff Lords.
When Jeff Lords told the contracting officer the risk management work would be put on hold, he
thought this was odd because OST’s Justification for Other than Full and Open Competition (JOFOC)
reflected that the risk management work was urgent. When NBC contracting officials told OST the
contract needed to be competed, OST moved the administration of the contract to BIA, where the
contract was awarded and then subcontracted to CD&L.

       A former procurement analyst, TASS, OST, told OIG special agents that he had no personal
knowledge of relationships between OST management and government contractors but added that
comments he received from CD&L gave him pause. The first instance involved a procurement in
which Jeff Lords was project manager. The procurement had not been awarded yet, but a conversation
he had with CD&L suggested “they knew more about it than [he] did.”

        The former OST procurement analyst offered no specifics about OST contracts being
improperly managed but said incredible amounts of pressure came from OST management – and
Erwin in particular. The former procurement analyst indicated the prevailing concerns among OST
staff were, “How’s Donna gonna take this?” and “You know Donna doesn’t like that.” He qualified
these statements by saying he had very limited dealings with Erwin and OST upper management.


                                                 16
       The former OST procurement analyst felt that Erwin, Erwin’s chief of staff, and Jeff Lords
were “micro-managing” contract personnel and cited examples such as summoning the former OST
procurement chief into their offices, phone calls to former OST contract specialist, and stopping by the
former OST procurement chief’s office. The former OST contract specialist received phone calls from
Erwin and office visits from Erwin’s chief of staff. The former procurement analyst said Erwin,
Erwin’s chief of staff, and Jeff Lords “had no qualms” about such an approach, and while Doug Lords
was a bit more circumspect, he could still apply pressure.

        The former OST procurement analyst said the Cobell litigation was routinely used as
justification not to compete the CD&L awards. He stated that he and the former OST contract
specialist felt there was no reason to continue sole-sourcing the CD&L work. He said they might have
allowed a “bridge” of approximately 6 months in the CD&L contract to avoid a break in service, to
write a new statement of work, and to obtain and evaluate proposals. The former OST procurement
chief was in agreement with the former OST procurement analyst and the former OST contract
specialist in ending the CD&L contract.

        The former OST procurement analyst further stated that had OST “clearly and blatantly”
broken any laws, he would have reported the matter to the proper authorities. He stated that a violation
of the Competition in Contracting Act was possible had a CD&L competitor known about the contract
in question, protested the matter, and obtained documents. When asked if there was a violation of
contract law, he replied “technically, yeah.” He said, however, that the contracting officer – not Erwin,
Erwin’s chief of staff, or Lords – would have been held responsible and suggested that OST
management distanced them enough from such culpability.

       An OST contract specialist also mentioned pressure from OST management in his interview
and confirmed the use of the Cobell litigation by OST management to “threaten” contract staff.

       Another former OST contract specialist suggested in an interview with OIG agents that Erwin
and her “senior lieutenants” in charge of the major programs – an OST information officer, Jeff Lords,
Doug Lords, and the former program analysis officer for OTRA – proceeded in willful disregard of
FAR requirements. During a subsequent interview, the former OST contract specialist told OIG agents
that OST management put undue pressure on acquisition officials who were supposed to use their
independent judgment and discretion in contracting matters. Money was spent without having
complete statements of work specifically defined. When TASS “proved too much of an obstacle,”
OST moved the contracting function “out and far away from people seeing it,” he said.

        A former OST contract specialist told OIG agents that he asked to be transferred out of
contracting work at OST during 2003 because he felt the contracting process had become political and
was being overly influenced by OST senior management, especially Erwin and Doug Lords. He added
that he was never directly contacted by OST senior management in regard to awarding contracts, but
his supervisor, the former OST procurement chief, would advise the OST contracting employees of
OST senior management’s desires in regard to contracts.

       According to the former OST procurement chief, all of the contracts on which he worked,
including the CD&L contract, were considered urgent by OST management. He added that he does
not remember which specific member or members of OST management he met with in reference to the
CD&L contract. He stated that he probably met with all of the OST management at some time to


                                                   17
discuss the CD&L contract. He further stated that many employees at OST are concerned about
repercussions from OST senior management if their names are mentioned in OIG reports.

CD&L Contract Irregularities

     Our interviews and record reviews disclosed numerous contract irregularities pertaining to the
CD&L contract, including the following:

    Task Orders issued did not directly correspond with the Statement of Work (SOW) for the
     contract.

    The contract itself did not establish deliverables.

    Both the task orders and deliverables were modified and extended numerous times over the
     duration of the contract.

    CD&L used subcontractors and contract employees to assist in creating databases. One of the
     subcontractors was a CD&L executive’s relative, who resides in Maryland. This individual
     traveled to New Mexico to work on the contract. His travel costs were billed to and paid by
     OST.

    OST personnel indicated that CD&L personnel were experts in Indian trust matters. However,
     we noted several instances where CD&L subcontracted out portions of its work, retained
     contract employees, and “rented” two individuals from the previous OTFM contractor.

    OST repeatedly used the Cobell litigation as rationale to sole-source contract work, as opposed
     to awarding contract work using the competitive process.

        We interviewed an attorney with the Office of the Solicitor who stated that he was unsure that
he had ever seen the entire CD&L contract, but he advised that the contract violated every clause in the
FAR related to competition. He said the contract and all task orders issued against it would also have
violated sections in the FAR related to (1) truth in negotiations (no government cost estimate), (2) type
of contract (the contract was not an Indefinite Delivery-Indefinite Quantity contract, yet TOs were
issued under it), and (3) scope of work.

        We also interviewed a former attorney with the Office of the Solicitor, who said the contracting
office should negotiate the hourly rate with the contractor and the contract file should include a memo
regarding that negotiation. He added that the contracting office is required to negotiate the rates,
especially if they include some measure of profit and overhead. Rates, as established by the contract,
included both profit and overhead. However, there was no documentation in the files provided to
support a rate analysis or negotiation.

        The former attorney with the Office of the Solicitor described some of the OST task order
justifications he viewed as indefensible and said the existence of a lawsuit (Cobell) is not an excuse to
not follow proper contracting procedures. He spoke of this in general, not just in relation to the CD&L
contract in question. He related that OST “fought like hell” not to advertise work after an initial award
and maintained that OST “wanted to continue the urgent and compelling contracts.” He was
responsible for five other contracting offices in addition to that of OST, but he said OST was always in

                                                   18
“crisis” mode and wanted results instantly. The former employee attempted to give OST priority, but
he stated that OST “played fast and loose” with the justification of urgent and compelling. When
asked if the SOL ever issued a written legal opinion concerning OST’s improper contracting actions in
relation to the CD&L contract or other contracts, he responded that there was not time to do so and that
many of the legal opinions were oral, not written.

       Currently, CD&L has the following contracts with DOI:

Contracting                                                      Completion
            Contract Number             Brief Description                      Amount
  Agency                                                            Date
GovWorks    INM0405BP40904           Blanket Purchase            11/12/2009 $100,000,000
                                     Agreement for
                                     accounting services on
                                     an as needed basis – 3
                                     task orders with
                                     completion dates
                                     extending to 01/31/2010
                                     valued at $11,025,566
                                     have been issued.
                                     According to
                                     GovWorks, two task
                                     orders are outstanding,
                                     one is for work at the
                                     Office of Historical
                                     Trust Accounting, and
                                     one is for OST
BIA            INISMK00050058        Risk Management             02/16/2006    $1,072,477.50
                                     Services – the contract     OST wants
                                     was awarded                 to extend
                                     02/16/2005 and has four
                                     option years
NBC            NBCTC040049           To fully reconcile and      Extended to   $175,000
                                     to provide adjustments,     03/31/2006
                                     with proper backup
                                     documentation, for
                                     distribution of an Indian
                                     trust account that goes
                                     back 20 years and
                                     where various records
                                     are located throughout
                                     Albuquerque, NM, and
                                     Lenexa, KS, by Sept.
                                     30, 2005

       The above information was obtained from DOI contracting officers, but the contracts
themselves were not reviewed as part of this investigation.



                                                  19
Allegations that OTRM Entered Into Contract Without Any Business Necessity

        We received allegations that OTRM entered into a contract because it still had money left that
needed to be spent before the end of the fiscal year, not out of any business necessity. The contract
called for the contractor to provide litigation support services for the Cobell litigation. We learned that
the former program analysis officer for OTRA and the former Deputy Director of OST made the
decision to hire the contractor. The former program analysis officer, the former Deputy Director of
OST, and the contractor were described as good friends who would go out drinking together. The
former Deputy Director of OST signed the contract on behalf of OTRM as the requestor, the funds
approval authority, and the approving official. Other allegations in relation to the contract include:

   •   While the JOFOC asserted that a best effort was made to review as many potential sources as
       practicable and that at least five vendors were contacted, other vendors were not contacted.

   •   It was hard to tie what little work the contractor did for OTRM with the SOW for the contract.
       The contract was subsequently modified to include what the contractor had actually done and to
       take out what the contractor was supposed to have done but had not.

   •   The contracting officer’s technical representative for the contract forwarded the draft SOW to
       the contractor for review and comment before the contract was issued.

   •   The only work in the policy and procedure area the contractor had accomplished was writing
       the OTRM travel policy.

Investigative Findings Relative to the Contractor

        An interview of an OTRA auditor disclosed that the contractor was tasked with collecting items
for use in the office, such as the Code of Federal Regulations (CFR), departmental manuals, Secretarial
Orders, and policies and procedures. The OTRA auditor believed that the contractor was writing
policies and procedures to be implemented at OTRM and stated that he was a “wealth of information.”
The OTRA auditor saw results from the contractor’s work under the contract and disclosed that the
contractor’s work was needed because OTRM did not have basic policies in place and OTRM staff did
not have time to produce them.

        The contract was, however, a sole-source selection, citing FAR 6.302-3(a)(2)(iii) as the
authority for awarding a sole-source contract for Expert Services related to litigation. Pre-award
documentation cited various reasons for the noncompetitive award, including specialized experience in
financial IT systems and unique and specialized expert knowledge in the area of Indian Mineral
Management, Indian natural resources policies and procedures, internal controls for Indian trust assets,
and auditing Indian trust resources. The “Efforts Made to Identify Potential Sources” section of the
JOFOC further indicates that an attempt to identify contractors was made from a GSA schedule of IT
contractors. The potential contractors were further narrowed down to a group specializing in
customer-based financial IT systems expertise, although our review of the contract file could not
determine whether the narrow group of potential contractors was ever contacted.

        As noted above, the Determination and Findings indicated that the contract was awarded sole
source to a contractor specializing in financial IT systems. However, the JOFOC stated that the vendor


                                                    20
had unique and specialized expert knowledge in the area of Indian Mineral Management, mineral
leases, Indian tribal and allotted lands, Indian natural resources policies and procedures, internal
controls for Indian trust assets, and auditing Indian trust resources. The contractor previously served
as the Executive Secretary for the Indian Minerals Steering Committee while with the Minerals
Management Service (MMS). The former program analysis officer for OTRA stated that the contract
was a sole-source award based on the contractor’s experience with the Steering Committee.

         Our review revealed that work performed by the contractor was sufficiently associated with the
SOW. The SOW was written by the contracting officer’s technical representative and was later revised
so the contractor could assist OTRM in the termination of the OST/MMS Indian Business Operations
(IBO) interagency agreement. The former program analysis officer for OTRA stated that OTRM
initially intended for the contractor to develop policies and procedures. However, after the contract
was awarded, things began to change. The contractor drafted several policies and coordinated the
effort to develop the OST property handbook and related system. The contractor also assisted OTRM
in the termination process for the IBO interagency agreement. The former program analysis officer
added that the contractor “did not do a lot of what we originally picked him up for, but things
changed.”

        The allegation that the SOW was provided to the contractor before the contract was awarded
was substantiated. However, this is not unusual, as SOWs are often included in solicitations for
contracts. Prior to bidding on a contract, the contractor should be aware of the requirements of the
work to determine if they would like to obtain the contract. In addition, an understanding of the work
and the associated deliverables is necessary for any contractor to prepare a cost estimate. We found
indications that the contracting officer’s technical representative and the contractor discussed added
deliverables and that the technical representative asked the contractor to offer suggestions to
timeframes noted in the SOW. Whether the contractor asked for revisions to be made is unknown.

        Our review of status reports, contract files, and other documentation showed that several draft
policies, plans, memorandums, and manuals were produced by the contractor, thereby refuting the
allegation that the contractor only wrote one policy.

       During our investigation, we also found that OST contractors are required to have a
background check to comply with security requirements. The contractor’s background investigation
was completed over a year after the date of award.

Allegations that OST Entered into IBO Interagency Agreement
To Help Out Old Friends and Colleagues and Not Out Of Any Business Necessity

        We received allegations that the former program analysis officer for OTRA, who came to OST
from MMS, entered into the agreement for risk management services with MMS, on behalf of OST, to
help old friends and colleagues, not out of any business necessity. The MMS entity that provided these
services was IBO. During the time the interagency agreement was being contemplated, there were
rumors that MMS was planning on cutting a number of the positions that became part of IBO. OST
staff believed that OTRM had the personnel on staff to do the job IBO was brought in to do.




                                                   21
Investigative Findings Relative to the IBO Interagency Agreement

       According to the former program analysis officer, when he was detailed to his position at OST,
approximately 157 outstanding trust function deficiencies within DOI were identified through the OIG,
the General Accounting Office, and third party audits. The former program analysis officer was tasked
with audit compliance resolution. In order to address the deficiencies, an organization was created
with responsibilities for risk management – OTRM.

        After working for OTRM for 4 or 5 months, the former program analysis officer was faced
with the issue, “Where do we get people?” to staff the office. Having worked for MMS, he said he
knew the agency was “in budget trouble.” MMS needed to find a way to “cover” approximately 40
positions. These positions were being cut, and normal attrition was not adequately addressing the
reduced level.

        MMS created a franchise team to outsource its services several years ago when it had more
employees than work. The former program analysis officer for OTRA contacted MMS personnel to
inquire if they would be interested in entering into some type of franchising agreement. He stated that
he favored this type of arrangement because it would allow OST to get “experienced personnel on
board quickly.” OST used the American Indian Trust Reform Act of 1994 (Reform Act) as its
authority to enter into the agreement. The Reform Act authorizes the Special Trustee to “go wherever
to get resources” necessary to accomplish objectives.

       The former program analysis officer for OTRA stated that MMS created IBO for the
interagency agreement with OST. IBO did not exist before the interagency agreement. The group
named itself IBO. MMS solicited its staff to determine interest in working on the agreement.
Assigned staff came from several MMS offices. The former program analysis officer stated that MMS
designated one IBO employee as the leader but that he had the right to “veto” the selection. The
former program analysis officer had no involvement in the selection of the staff that became part of the
IBO team. These individuals were assigned internally by MMS.

Other Contracts Reviewed

       Although allegations were limited to two contracts and an interagency agreement, we
subsequently expanded our review to include five additional contracts that came into question during
the course of our investigation. The five contracts are identified below:

 Award                                                                                 *Approximate
                Contractor                         Original Description
  Date                                                                                    Value
09/1995 Former OTFM Contractor        Financial Statement Audit Services contract         $2,813,665
03/1999 DataCom Science, Inc.         Data Cleanup                                       $47,560,788
06/2001 Electronic Data Systems       Consultation and facilitation                      $16,350,537
        Corporation
10/2001 Native American Industrial    For “assistance to provide expert advice,              $246,000
        Distributors, Inc.            guidance, and counseling”
09/2003 Neff & Ricci L.L.P.           To provide technical assistance and consulting         $513,750
                                      and accounting services to manage the SDA
                                      Prospective database


                                                  22
* Note: This figure represents the value at the end of our review.

       During the review, we noted broad statements of work, numerous contract modifications,
questioned costs, and a lack of documentation in contract files. We interviewed a procurement analyst
with DOI’s Office of Acquisition and Property Management regarding a review his office performed
of TASS. The procurement analyst characterized TASS as substandard and said it was not equipped to
perform sophisticated contracting.

        The procurement analyst said TASS was not a competent contracting office, adding that was
part of why his office did not issue a final report on their review of TASS. He stated that a former
TASS contracting officer gave the Special Master in the Cobell litigation a copy of the draft report.
The procurement analyst related that, as long as the report was in draft form, the Office of Acquisition
and Property Management could say it was pre-decisional and thereby did not have to give it to the
Special Master in the Cobell litigation.

        According to the procurement analyst, OST reacted to the draft report as though it were final
and made a verbal commitment that program changes would result. He attributed a lack of personnel
as a large problem within TASS. He stated that TASS was showing signs of improvement but OST
management had given up.

        We conducted several interviews in addition to those specifically cited in this report. These
interviews provided information that was already reported, including background information,
information regarding the original complaint, information regarding socializing, and information
related to the contracts reviewed over the course of the investigation.

                                           Disposition
        This matter was declined by the District of New Mexico, U.S. Attorney’s Office, U.S.
Department of Justice, for criminal prosecution. The matter will be referred to DOI for administrative
action.




                                                   23
                                         Appendix A
                            OST Golf Sites with Prohibited Sources




               WA

                               MT

             OR
                       ID




               NV




                      AZ

                                NM




This chart represents locations where Senior Executive Service OST officials and other OST
employees golfed with owners of CD&L and other prohibited sources. CD&L and OST are
both located in Albuquerque, NM.

The 13 New Mexico golf courses include: Tanoan Country Club, University of NM
Championship Golf Course, Santa Ana Golf Club, Isleta Eagle Golf Club, Pueblo de Cochiti
Golf Course, Four Hills Country Club, Arroyo del Oso Golf Course, Paa-ko Ridge Golf Club,
Paradise Hills Golf Club, Ladera Golf Course, Chamisa Hills Country Club, Kirtland Air
Force Base, and Los Altos Golf Course.

The Six of the Out-of-State golf courses included: Emerald River Golf Club in Laughlin, NV,
Sandpiper Golf Course in Portland, OR, Gold Canyon Golf Resort in Gold Canyon, AZ,
Superstition Springs Golf Club in Mesa, AZ, course name unknown in Spokane, WA, course
name unknown in Coeur d’Alene, ID, and course name unknown in Polson, MT.




                                             24
                                             Appendix B

               A Timeline of CD&L Expense Report Entries Listing OST Officials
                           Compared With CD&L Contract Actions


Note: CD&L Contract Actions Are Highlighted in Gray


                                                                     Vendor        Vendor    Contract
             Date                      Description                   Service       Costs      Costs
                                Golf - Doug Lords; business
   Monday, October 12, 1998     mtg                                                 $40.00
                                Letter Contract - Allow the
                                contractor to begin
                                performance on TO #1
   Friday, October 16, 1998     (Compilations) on 10/19/98                                    $29,670.00
   Sunday, October 25, 1998     Golf – Doug Lords, business      -                  $24.27
                                Business Lunch - Lords,
   Wednesday, November 18,      Former OTFM Contractor,
           1998                 Audit                            -                  $28.18
                                                                 OTFM
   Friday, December 11, 1998    OTFM X-MAS PTY                   Organization      $110.00
                                Golf – Doug Lords; pract.
  Sunday, December 13, 1998     Dev.                             -                  $46.00
                                Definitized Contract - Provide
                                expert accounting &
                                consulting services to assist
                                & support OTFM in current
  Thursday, January 07, 1999    litigation.                                                  $150,000.00
   Sunday, January 10, 1999     Golf– Doug Lords; Audit          -                  $29.95
                                Golf- Doug, CD&L Executive,
   Monday, January 18, 1999     Jeff Lords                       UNM                $29.95
                                Golf – [Ex. 6 & 7C], CD&L
   Sunday, January 24, 1999     Executive, CD&L Executive        Santa Ana          $92.00
                                Golf – Doug, Jeff, [Ex. 6 &
   Sunday, January 31, 1999     7C], CD&L Executive              Paradise Hills     $50.00
                                Golf- Doug Lords, Former
                                TASS Procurement Chief,
   Monday, February 15, 1999    OST                              UNM Golf           $34.94
                                Golf- Doug, CD&L Executive,
                                ITS Official, OST
   Sunday, February 28, 1999    Management Analyst               Isleta             $38.00
                                Golf- Doug, CD&L Executive,
                                Jeff L., OST Management
    Sunday, March 07, 1999      Analyst                          Santa Ana          $46.00
                                Golf- Doug L., OST
    Sunday, March 14, 1999      Management Analyst               Santa Ana          $46.00
    Friday, March 26, 1999      [Ex. 6 & 7C] Dinner – OST        -                  $22.00
    Friday, March 26, 1999      [Ex. 6 & 7C] Gift                -                  $47.36
    Friday, March 26, 1999      [Ex. 6 & 7C] Gift                -                   $3.18

     Sunday, April 18, 1999     Golf- Doug Lords                 Rio Rancho Club    $28.67



                                                   25
                                                                    Vendor         Vendor    Contract
           Date                       Description                   Service        Costs      Costs
                               Modification #1 - Changed
                               address of contract
 Wednesday, May 05, 1999       administration office                                                N/A
  Thursday, May 27, 1999       OTLSR Pot Luck                   -                   $39.99
  Saturday, May 29, 1999       Golf- Doug L. (Golf)             UNM                 $39.00
                               Golf- CD&L Executive, Doug
   Monday, May 31, 1999        Lords                            Santa Ana           $35.00
                               Golf- CD&L Executive, Doug
 Wednesday, June 02, 1999      L. (Golf SD Accounts)            Isleta              $39.00
                               Golf- CD&L Executive, Doug
    Friday, June 04, 1999      L. (Golf SD Accounts)            Santa Ana           $46.00
                               Golf- Former OTFM
   Sunday, June 06, 1999       Contractor (Golf)                Santa Ana           $46.00
   Saturday, July 03, 1999     Golf- Doug Lords                 Isleta              $41.50
                               Modification #2 - Incorporate
                               proposed work plan and fee
    Friday, July 16, 1999      estimate into the contract                                     $77,762.00
   Saturday, July 24, 1999     Golf with Doug L.                UNM South           $35.31
                               Former OTFM Contractor;
                               Former OTFM Contractor,
                               Subcontracted to CD&L; OST       Mileage from
  Sunday, August 08, 1999      Management Analyst               Okla.              $208.00

                                                                American Golf
  Sunday, August 15, 1999      Golf- Doug Lords                 (Paradise)          $36.00
                               Business Meal – Staff; OTFM
Thursday, September 02, 1999   Litigation                       -                   $99.36
                               Golf - [Ex. 6 & 7C], [Ex. 6 &
 Friday, September 17, 1999    7C]; OTFM Lit                    -                   $80.00
                               Modification #3 – Govt
                               extended its option to
                               exercise the contract through
  Friday, October 01, 1999     09/30/00 (Option year #1)                                            N/A
                               Golf- Doug L., Jeff L., CD&L
 Sunday, October 03, 1999      executive                        UNM South           $41.50
 Saturday, October 16, 1999    Golf- Doug, Jeff Lords           Isleta Golf         $39.00
                               Former OTFM Contractor
                               and [Ex. 6 & 7C] with the [Ex.
                               6 & 7C] (Paid for [Ex. 6 & 7C]
 Tuesday, October 19, 1999     only)                            Out Back            $74.17
                               Business Meal - [Ex. 6 & 7C],
                               [Ex. 6 & 7C], OTFM ([Ex. 6 &
  Friday, October 22, 1999     7C] cost only)                   -                   $33.94
                               Golf- Doug L., Relative of an
 Saturday, October 30, 1999    OST employee                     Santa Ana           $46.00
Saturday, November 06, 1999    OTFM Tailgate                    Dunkin Donuts        $4.22
Thursday, November 11, 1999    Golf- Doug L.                    Iseleta Golf        $33.00
 Friday, November 19, 1999     OTFM                             Dunkin Donuts        $4.35
Thursday, December 30, 1999    Golf- Doug L.                    UNM South (Golf)    $29.95




                                                  26
                                                                  Vendor      Vendor    Contract
           Date                       Description                 Service     Costs      Costs
                               Golf- Green Fees – OTFM –
 Monday, January 17, 2000      [Ex. 6 & 7C] & [Ex. 6 & 7C]    -                $44.00
                               Golf- Former OTFM              Superstition
  Friday, January 28, 2000     Contractor, Doug Lords         Springs         $112.56
                               Golf- Former OTFM
 Saturday, January 29, 2000    Contractor, Doug Lords         Gold Canyon     $148.40
 Sunday, February 27, 2000     Golf- Doug Lords               Four Hills       $44.44
                               Modification #4 -
                               Incorporated additional
  Thursday, March 16, 2000     clauses into contract terms                                     N/A
   Sunday, April 09, 2000      Golf- Doug Lords, Jeff Lords   Paa-ko           $59.01
                                                              Golf Paradise
  Saturday, April 22, 2000     Golf- Doug Lords               Hills            $39.00
                               Golf – Former Program
                               Analysis Officer for OTRA,
                               Former TASS Procurement
    Friday, April 28, 2000     Chief, OST, task 11            -                $51.00
                               Golf- OTFM Golf Scramble –
    Friday, April 28, 2000     [Ex. 6 & 7C]                   -               $120.00
                               CD&L Executive, CD&L
    Friday, April 28, 2000     Executive, [Ex. 6 & 7C]        Seasons          $54.57
    Friday, May 05, 2000       Golf- Doug Lords               Paradise         $22.00
   Sunday, May 21, 2000        Golf- Doug Lords               Paako            $59.01
   Saturday, May 27, 2000      Golf- [Ex. 6 & 7C]             -                $59.01
                               Golf- Doug Lords, CD&L
  Saturday, June 03, 2000      Executive                      Paako Ridge      $59.01
                               Modification #5 - Increase
                               contract amount will cover
  Tuesday, June 27, 2000       TO #1, Amend #2                                           $18,835.00
  Saturday, July 01, 2000      Golf- Doug Lords               Paa-ko (Golf     $59.01
   Sunday, July 02, 2000       Golf- Doug Lords               UNM South        $43.00
  Saturday, July 08, 2000      Golf- Doug L.                  Iseleta          $40.00
                               Modification #6 - Change
  Thursday, July 13, 2000      CD&Ls address                                                   N/A
 Thursday, August 10, 2000     Client Potluck – OST           -                $60.62
                               Golf- Doug, Jeff Lords,
Wednesday, August 30, 2000     Former OTFM Contractor         Sandpiper        $47.85
Saturday, September 02, 2000   Golf- Doug Lords               Paako Golf       $59.01
Saturday, September 02, 2000   Golf- [Ex. 6 & 7C]             Arroyo           $20.00
                               Golf- Former OTFM
                               Contractor, [Ex. 6 & 7C],
Wednesday, October 18, 2000    OST Management Analyst         -                $70.07
 Sunday, October 22, 2000      Golf- Doug Lords               Four Hills       $65.61
Tuesday, November 21, 2000     Golf Doug Lords                UNM South        $31.00
Tuesday, November 21, 2000     Pot Luck OTFM                  Rudy's BBQ       $33.00
Tuesday, November 21, 2000     Turkey for OTFM                ?                $32.80
                               Golf– Doug Lords, Former
                               Program Analysis Officer for
                               OTRA, Former TASS
Saturday, December 02, 2000    Procurement Chief, OST         Isleta           $40.00



                                                 27
                                                                  Vendor         Vendor    Contract
           Date                      Description                  Service        Costs      Costs
                              Golf- Office/OTFM Golf
Saturday, December 02, 2000   Outing                          -                   $46.00
                              Business Lunch - Former
                              Program Analysis Officer for
                              OTRA, Former TASS
                              Procurement Chief, OST,
                              [Ex. 6 & 7C] (DID NOT PAY
Tuesday, December 05, 2000    FOR CLIENT)                     -                   $37.29
                                                              CD&L Executive
Saturday, December 16, 2000   Drinks - OTFM X-Mas Party       and [Ex. 6 & 7C]    $25.00
                              Golf- Former OTFM
Saturday, December 16, 2000   Contractor, Doug                -                   $43.00
                              OTRM XMas Party - ?, [Ex. 6
Saturday, December 16, 2000   & 7C], [Ex. 6 & 7C], DG         -                  $100.00
 Wednesday, December 20,
            2000              OST Potluck                     -                   $40.00
 Friday, December 22, 2000    Golf- Lords                     UNM South           $31.00
                              Modification #7 - Change
                              contract admin from NBC to
                              OST Division of Contracts &
                              Grants Administration
Monday, January 01, 2001      Acquisition Center                                                  N/A
 Friday, January 05, 2001     Donuts – OTFM                   -                    $7.40
Thursday, January 25, 2001    Golf- Doug, Jeff Lords          Emerald River       $70.00
Monday, February 19, 2001     Golf- Doug, Jeff Lords          Arroyo              $25.64
 Monday, March 05, 2001       Golf- Entry Fee - D. Lords      -                   $50.00
 Saturday, March 17, 2001     Golf- Tourn With Doug Lords     Arroyo              $50.00
                              Modification #8 - Addition of
                              TO #4 based on OTFM
                              requirement of compliance
                              with FMFIA (Integrity Act)--
                              Additional funds will be
  Monday, March 26, 2001      added as available                                            $17,150.00
  Tuesday, April 03, 2001     Pot Luck OTFM                   Marie Calendars     $20.21
                              Golf- Former Program
  Saturday, April 07, 2001    Analysis Officer for OTRA       Tanoan              $37.70
  Tuesday, April 10, 2001     Pot Luck OTFM                   Smith's             $11.50
                              Golf- Former Program
                              Analysis Officer for OTRA,
   Friday, April 13, 2001     Doug Lords                      Four Hills          $65.60
                              Modification #9 - Increase
 Wednesday, May 09, 2001      obligation for TO #4                                          $50,000.00
                              Modification #10 -
                              Incorporates new TO (#5)
                              Special Deposit Accounts
                              Pilot Project--CD&L’s
                              proposal date is incorporated
   Friday, June 01, 2001      in its entirety                                              $344,208.00
                              Modification #11 - Increase
  Monday, June 18, 2001       funding for TO #4                                             $45,000.00
  Saturday, June 23, 2001     Golf- Former Program            Isleta              $24.00


                                                28
                                                                   Vendor     Vendor    Contract
           Date                       Description                  Service    Costs      Costs
                               Analysis Officer for OTRA,
                               Jeff Lords
                               Modification #12 - Increase
    Friday, June 29, 2001      funding for TO #4                                         $40,600.00
                               Modification #13 - Amends
                               Mod #12 to increase funding
    Friday, June 29, 2001      for TO #s 6 & 7                                          $157,400.00
                               Golf- Former Program
                               Analysis Officer for OTRA,
    Friday, July 20, 2001      Jeff Lords                      Cochiti Golf    $46.00
                               Modification #14 - Increase
  Wednesday, July 25, 2001     contract amount                                           $15,606.34
                               Modification #15 - Increase
   Thursday, July 26, 2001     the contract amount                                      $313,442.00
                               Modification #16 – De-
                               obligate $238,428 in its
 Thursday, August 09, 2001     entirety - TO #s 8 & 9                                   -$238,428.00
                               Modification #17 - Increase
Thursday, September 13, 2001   contract amount                                           $25,077.00
                               Modification #17 - Increase
 Friday, September 14, 2001    contract amount for TO #9                                $113,000.00
                               Modification #18 - Increase
Monday, September 17, 2001     contract amount for TO #4                                 $52,000.00
                               Modification #19 - Increase
 Friday, September 21, 2001    contract amount for TO #9                                 $52,000.00
                               Modification #20 - Increase
 Friday, September 21, 2001    contract amount for TO #5                                $170,000.00
 Wednesday, September 26,      Modification #21 - Increase
            2001               contract amount for TO #10                                 $9,335.00
                               Modification #22 - Corrects
                               error in accounting strip, NO
 Friday, September 28, 2001    new funds added                                                $0.00
                               Modification #23 - Corrects
                               Mod #21 to read "Funds will
                               cover expenses in Task 11",
Wednesday, October 03, 2001    NO new funds are added                                         $0.00
                               Modification #24 - Increase
Thursday, November 01, 2001    contract amount for TO #5                                 $54,000.00
                               Golf- Lords, Former Program
Monday, November 12, 2001      Analysis Officer for OTRA       UNM South       $31.00
 Friday, November 30, 2001     Golf- Jeff Lords                Isleta          $20.00
Saturday, December 08, 2001    OTFM X-Mas Party                -              $100.00
                               Golf- Doug Lords, Former
                               Program Analysis Officer for
Sunday, December 09, 2001      OTRA                            Tanoan          $22.00
Saturday, December 22, 2001    Golf- Doug Lords                Isleta          $30.00
                               Modification #25 - Increase
 Tuesday, January 15, 2002     contract amount for TO #11                                $10,000.00
                               Modification #26 - Increase
 Thursday, January 31, 2002    contract amount attached to                              $125,000.00

                                                 29
                                                                Vendor       Vendor    Contract
          Date                      Description                 Service      Costs      Costs
                              TO #10

                              Modification #27 - Extends
                              performance period, NO
 Friday, February 01, 2002    funds added to TO #5                                           $0.00
Tuesday, February 05, 2002    OTFM Birthday                 ABC Cake          $26.98
Saturday, February 09, 2002   Golf- Doug Lords              Cochiti           $50.00
                              Golf- Tourn (Former Program
                              Analysis Officer for OTRA,
Saturday, February 16, 2002   Lords)                        Isleta            $38.50
                              Modification #28 - Increase
 Tuesday, March 05, 2002      contract amount to TO #5                                   $5,000.00
                              Golf– Former Program
 Sunday, March 17, 2002       Analysis Officer for OTRA     -                 $63.49
                              Modification #29 - Increase
                              contract amount to TO #10
 Monday, March 25, 2002       Phase II                                                 $175,000.00
  Friday, April 05, 2002      Golf- Doug, [Ex. 6 & 7C]      -                 $45.99
                              Modification #30 - Increase
                              contract amount to TO #5
Wednesday, April 10, 2002     Phase I                                                    $5,000.00
                              Golf- Doug Lords, [Ex. 6 &
  Sunday, April 21, 2002      7C]                           Santa Ana Golf   $116.00
  Friday, April 26, 2002      Golf- Guest Fee               Tanoan            $30.00
                              Golf- Former TASS
   Friday, April 26, 2002     Procurement Chief, OST        -                 $28.75
                              Golf- Jeff Lords, Former
  Sunday, April 28, 2002      OTFM Contractor               Paako             $69.00
                              Golf- Trust Funds Liaison
                              Officer, Former OTFM
  Sunday, April 28, 2002      Contractor                    Isleta Golf       $28.00
  Sunday, May 05, 2002        Golf- Doug Lords              Arroyo            $32.50
                              Modification #31 - Increase
                              contract amount to cover TO
   Friday, May 10, 2002       #5                                                       $721,652.00
                              Modification #32 - Increase
                              contract amount to cover TO
   Friday, May 10, 2002       #5                                                       $294,348.00
   Friday, May 17, 2002       Golf- Doug Lords              Arroyo            $29.00
                              Modification #33 - Increase
Wednesday, May 22, 2002       contract amount TO #10                                   $372,096.00
                              Golf- Former Program
                              Analysis Officer for OTRA,
   Friday, June 07, 2002      CD&L executive                Tanoan            $30.87
                              Golf- Lords, Trust Funds
  Sunday, June 09, 2002       Liaison Officer               Isleta Golf       $45.00
                              Golf- Doug Lords, [Ex. 6 &
 Saturday, June 22, 2002      7C]                           -                 $63.49
                              Modification #34 -
  Monday, June 24, 2002       Administrative Action                                          $0.00
   Friday, July 05, 2002      Golf- Doug, Former Program    UNM               $43.00


                                               30
                                                                    Vendor       Vendor    Contract
           Date                       Description                   Service      Costs      Costs
                               Analysis Officer for OTRA
                               Golf- Doug, Former Program
   Saturday, July 06, 2002     Analysis Officer for OTRA        Tanoan            $25.32
                               Modification #35 - Exercises
                               the final 5th option year and
                               extends the performance
   Monday, July 15, 2002       period                                                            $0.00
   Sunday, July 21, 2002       Golf- Lords                      Isleta            $48.00
                               Modification #39 - Increase
   Monday, July 29, 2002       contract amount to TO #2                                     $38,715.91
                               Modification #36 -
                               Performance period for TO
                               #5 SDA Pilot Project Phase II
 Tuesday, August 27, 2002      is extended                                                       $0.00
 Wednesday, September 04,      Modification #37 - Increase
          2002                 contract amount for TO #9                                   $400,000.00
                               Golf- [Ex. 6 & 7C], Former
                               Program Analysis Officer for
 Friday, September 13, 2002    OTRA                             Tanoan Golf       $48.67
                               Modification #38 - Total
                               contract price increased -
                               Extends performance period
Monday, September 30, 2002     for TO #10                                                  $299,650.00
                               Golf- OTFM Scramble – [Ex.
                               6& 7C], CD&L Executive,
 Sunday, November 17, 2002     [Ex. 6 & 7C]                     -                $120.00
                               Modification #40 - Increase
                               total contract price, extends
                               performance period for TO
Tuesday, December 31, 2002     #5                                                          $214,631.68
                               Golf- Trust Funds Liaison
Wednesday, January 01, 2003    Officer                          Santa Ana Golf    $55.00
                               Golf- Trust Funds Liaison
  Sunday, January 05, 2003     Officer, [Ex. 6 & 7C]            Tanoan Golf       $37.03
                               Golf- Trust Funds Liaison
 Saturday, January 11, 2003    Officer                          Isletta Golf      $40.00
                               Happy Hour - [Ex. 6 & 7C],
                               [Ex. 6 & 7C], [Ex. 6 & 7C],
Wednesday, February 05, 2003   Doug Lords                       Pappadeaux        $90.00
                               Golf- Trust Funds Liaison
  Saturday, March 22, 2003     Officer                          Santa Ana         $30.00
                               Modification #41 - Increase
   Friday, March 28, 2003      total contract price for TO #5                               $73,258.71
                               Modification #42 - Increase
                               contract price for TO #10,
                               and extends performance
   Tuesday, April 01, 2003     period                                                      $224,529.63
   Sunday, April 27, 2003      Golf- Lords, [Ex. 6 & 7C]        Paako             $69.00
                               Modification #43 - Project
   Thursday, May 01, 2003      extended for TO #5                                                $0.00




                                                  31
                                                                  Vendor    Vendor       Contract
           Date                      Description                  Service   Costs         Costs
                              Modification #44 - Increase
                              contract price for TO #5, and
 Wednesday, May 14, 2003      extend performance period                                   $99,200.00
                              Modification #45 - Increase
   Tuesday, July 01, 2003     contract price for TO #10                                  $353,314.00
   Sunday, July 20, 2003      Golf- Doug Lords                Tanoan          $76.18
                              Modification #46 - Increase
   Tuesday, July 22, 2003     contract price for TO #7                                   $356,747.00
  Sunday, August 24, 2003     Golf– Lords                     -               $55.02
                              Modification #47 - Increase
 Friday, September 05, 2003   contract price for TO #5                                    $29,204.00
                              Modification #48 - Increase
                              contract price to reflect
Wednesday, September 10,      added funds to cover TO #7,
          2003                TO #5                                                       $72,518.00
Sunday, September 14, 2003    Golf– Lords                     Tanoan          $13.00
                              Golf– Former Program
Sunday, September 21, 2003    Analysis Officer for OTRA       Tanoan          $13.76
                              Golf– Former Program
Sunday, September 28, 2003    Analysis Officer for OTRA       Tanoan          $13.00
                              Modification #50 - Increase
                              contract price to cover to TO
Tuesday, September 30, 2003   #7                                                         $230,000.00
                              Modification #49 - Increase
Wednesday, October 01, 2003   contract price for TO #9                                   $619,500.00
 Sunday, October 05, 2003     Golf– Lords                     Tanoan          $77.24
 Wednesday, December 31,      Modification #47 - Increase
          2003                contract TO #10                                            $365,249.18
                              Business Dinner - OTFM,
                              [Ex. 6 & 7C], [Ex. 6 & 7C]
         03/18/02*            (cash)                          -                $25.00
         TOTALS                                                             $5,790.90   $6,581,271.45




                                                 32
